<html>
<title> - THE FUTURE OF NUCLEAR ENERGY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                      THE FUTURE OF NUCLEAR ENERGY

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON ENERGY,

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           December 11, 2014

                               __________

                           Serial No. 113-99

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov
       
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-332 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
















       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas
FRANK D. LUCAS, Oklahoma             ERIC SWALWELL, California
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
MICHAEL T. McCAUL, Texas             JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             MARC VEASEY, Texas
THOMAS MASSIE, Kentucky              ZOE LOFGREN, California
KEVIN CRAMER, North Dakota           DANIEL LIPINSKI, Illinois
RANDY WEBER, Texas                   KATHERINE CLARK, Massachusetts
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas



















                            C O N T E N T S

                           December 11, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Cynthia Lummis, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Eric Swalwell, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     9

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

                               Witnesses:

                                Panel I

The Honorable Peter Lyons, Assistant Secretary, Office of Nuclear 
  Energy, U.S. Department of Energy
    Oral Statement...............................................    11
    Written Statement............................................    13

Discussion.......................................................    21

                                Panel II

Dr. Ashley Finan, Senior Project Manager, Energy Innovation 
  Project, Clean Air Task Force
    Oral Statement...............................................    37
    Written Statement............................................    40

Mr. Mike McGough, Chief Commercial Officer, NuScale Power
    Oral Statement...............................................    47
    Written Statement............................................    49

Dr. Leslie Dewan, Co-founder and Chief Executive Officer, 
  Transatomic Power
    Oral Statement...............................................    60
    Written Statement............................................    62

Mr. Daniel Lipman, Executive Director, Policy Development, 
  Nuclear Energy Institute
    Oral Statement...............................................    66
    Written Statement............................................    68

Discussion.......................................................    81

             Appendix I: Answers to Post-Hearing Questions

The Honorable Peter Lyons, Assistant Secretary, Office of Nuclear 
  Energy, U.S. Department of Energy..............................    86

Dr. Ashley Finan, Senior Project Manager, Energy Innovation 
  Project, Clean Air Task Force..................................    88

Mr. Mike McGough, Chief Commercial Officer, NuScale Power........    90

Dr. Leslie Dewan, Co-founder and Chief Executive Officer, 
  Transatomic Power..............................................    92

Mr. Daniel Lipman, Executive Director, Policy Development, 
  Nuclear Energy Institute.......................................    93

 
                      THE FUTURE OF NUCLEAR ENERGY

                              ----------                              


                      THURSDAY, DECEMBER 11, 2014

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Cynthia 
Lummis [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Lummis. The hearing of the Subcommittee on 
Energy will come to order.
    Good morning and welcome to today's joint hearing titled 
``The Future of Nuclear Energy.'' In front of each Member are 
packets containing the written testimony, biographies, and 
truth-in-testimony disclosures for today's witnesses.
    And before I give an opening statement, I would like to say 
that it has been my pleasure for the past two years to serve on 
a Committee that is Chaired by one of the most distinguished 
Members of Congress who has been the type of Chairman that 
every Member of Congress hopes that they will have the 
opportunity to serve with and under. Lamar Smith is a 
gentleman's gentleman and has been one of the most wonderful 
people that a Subcommittee Chairman could have the opportunity 
to tutor under.
    This Committee has conducted I believe 87 hearings during 
the course of the last two years under Chairman Smith's 
leadership and we have done it in a manner that has been 
respectful, that has sought information, allowed us to be 
better advocates and more knowledgeable Members of Congress.
    So I would like to start before I give my opening statement 
to take this opportunity to thank Chairman Smith for his 
leadership, his mentorship, and for his many years in Congress 
from which all of us who have worked with him and under him 
have benefited.
    Mr. Weber. Will the gentlelady yield?
    Chairwoman Lummis. I will yield.
    Mr. Weber. I have got to get ahead of our Chairman here. I 
just want to say ditto.
    Chairman Smith. You all are nice. Would the Chair yield 
just for a minute?
    Chairwoman Lummis. The Chair will yield.
    Chairman Smith. I just want to thank Cynthia Lummis for 
being an outstanding Subcommittee Chairman. We will miss her 
but always support her in her other committee assignments. And 
she has not only been an outstanding Chair, she has been an 
outstanding Member of Congress. She is knowledgeable, she is 
conscientious, she is thoughtful, she is diplomatic, but she is 
also strong, and those qualities have made Cynthia Lummis one 
of the outstanding Members of Congress that we have today.
    So, Cynthia, thank you very much for all you have done and 
thanks for spreading good rumors about me.
    Chairwoman Lummis. Thank you. Thank you, Mr. Chairman.
    The Members of this Committee which will participate under 
your leadership during the next Congress are fortunate indeed 
to have you as their leader and mentor.
    Well, good morning. And I would like to welcome our 
witnesses for today's hearing. Today, we will look at the track 
record and road forward for research and development within 
DOE's Office of Nuclear Energy. We will also look at the 
progress of nuclear energy technology in the United States and 
the regulatory environment for licensing new reactors.
    Nuclear power currently accounts for approximately 19 
percent of the United States' electricity generation and 60 
percent of our emission-free electricity. And my home State of 
Wyoming is the nation's largest producer of uranium. Nuclear 
energy is reliable, resilient, and has safely powered America 
for decades.
    But the fundamental questions about the future of this 
technology need to be answered: When will we see the 
commercialization of small modular nuclear reactors that can be 
deployed at off-grid locations, something of particular 
interest I might say from me coming from the most sparsely 
populated state in the United States. When will we see 
deployment of advanced reactors that can reach much higher 
levels of thermal efficiency, recycle nuclear waste, and serve 
as hybrid energy systems? And what are the regulatory and 
market barriers slowing down progress of these technologies in 
the United States?
    As many of us know, the time frame for bringing a nuclear 
reactor online is unforgivably long and so we must work 
together to make sure that we can make it more time-sensitive.
    Nuclear energy was born in the United States. We have the 
best scientists and engineers in the world. We are fortunate to 
have some of them here today. Yet we are not seeing the pace of 
commercial technology advancement that we would expect. At the 
same time, other countries, including China, are surging ahead.
    We have to ask ourselves: Is the United States going to 
remain a global leader in nuclear technology? These are the 
issues that we want to discuss today. I look forward to further 
discussion and again, I thank the witnesses for participating 
in today's hearing.
    [The prepared statement of Mrs. Lummis follows:]

              Prepared Statement of Subcommittee on Energy
                       Chairwoman Cynthia Lummis

    Good morning. I would like to welcome our witnesses to today's 
hearing. Today, we will look at the track record and road forward for 
research and development within DOE's Office of Nuclear Energy. We will 
also look at the progress of nuclear energy technology in the United 
States and the regulatory environment for licensing new reactors.
    Nuclear power currently accounts for approximately 19% the United 
States' electricity generation and 60% of our emission-free 
electricity. And, my home state of Wyoming is the nation's largest 
producer of uranium. Nuclear energy is a reliable, resilient, and has 
safely powered America for decades.
    But, fundamental questions about the future of this technology need 
to be answered:

    <bullet>  When will we see the commercialization of small modular 
reactors that can be deployed at offgrid locations?

    <bullet>  When will we see deployment of advanced reactors that can 
reach much higher levels of thermal efficiency, recycle nuclear waste, 
and serve as hybrid energy systems?

    <bullet>  What are the regulatory and market barriers slowing down 
progress of these technologies in the United States?

    Nuclear energy was born in the United States. We have the best 
scientists and engineers in the world. Yet, we are not seeing the pace 
of commercial technology advancement that we would expect. At the same 
time, other countries including China are surging ahead.
    We have to ask ourselves: is the United States going to remain a 
global leader in nuclear technology? These are the issues we intend to 
discuss today. I look forward to further discussion and again, I thank 
the witnesses for participating in today's hearing.

    Chairwoman Lummis. The Chair now recognizes our Ranking 
Member Mr. Swalwell for his opening statement.
    Mr. Swalwell. Thank you, Chairman Lummis.
    And first, I would also like to express my good wishes for 
you going forward. I have enjoyed working with you. You were 
very kind early on when we both were selected to lead our 
respective sides on this Subcommittee. And we met and we have 
talked about what our mutual interests are, I think especially 
in an all-of-the-above energy approach I do think you have led 
this Committee every time with an open mind, with dignity, and 
it is something that I will miss. But I know that there are 
many great things ahead for what you will do and the work you 
will accomplish in the Congress.
    So thank you for just being so gracious. Even during 
contentious hearings, you never ceased to allow both sides to 
be heard and you were always open, I think, to whatever ideas 
were out there that could move our country forward and I really 
do appreciate that.
    Chairwoman Lummis. Thank you. Will the gentleman yield?
    Mr. Swalwell. Yes.
    Chairwoman Lummis. I, too, want to acknowledge what a 
proper and important and dignified and lovely working 
relationship that I have had with the Ranking Member Mr. 
Swalwell. It has been a breath of fresh air. And we are good 
partners on this Committee and I have very much enjoyed our 
working relationship and my very best to you.
    Mr. Swalwell. And, Chair, I will never forget you asked me 
one time during a meeting--I told you I believe when it comes 
to energy if we can make it safe, we should make it happen, and 
you looked me in the eye and you said do you really believe 
that? And I said yes, I do. And you said I am going to put the 
screws to you on that and hold you to that and you have, and I 
appreciate that. And I hope we can find more ways where we both 
believe we can make it safe, we can make it happen.
    And speaking of making it safe and making it happen, with 
respect to today's hearing, for decades, the federal government 
has provided critical support for energy R&D. And from solar 
and wind to natural gas recovery, many of the technologies that 
are helping us transition to a clean energy economy and 
creating entire new industries wouldn't be nearly as far along 
as they are today, or would not exist without the benefit of 
the partnerships between the federal government and public and 
semi-public partnerships and entities.
    I look forward to learning more today about nuclear energy, 
particularly from our witness from NuScale power, who we will 
be hearing from today, who has been working with Sandia 
National Laboratory, which is located in Livermore, California, 
in the 15th Congressional District, which I have the privilege 
to represent.
    This morning we are here to discuss the federal role in the 
development and deployment of the next generation of nuclear 
power plants and how this support may be better structured 
going forward. I am eager to learn about the costs and benefits 
of these new technologies over the course of the hearing, 
including ways we can improve the safety of new reactors to 
minimize the chance of another catastrophic event along the 
lines of the disaster that occurred at the Fukushima plant just 
a few years ago.
    I have stated a number of times that I just referenced that 
I believe and support an all-of-the-above ``if we can make it 
safe, we should make it happen'' approach to clean energy, and 
achieving a safer, more cost-effective and environmentally 
friendly way to utilize nuclear energy, and how that can play 
an important role in this mix. We just need to make sure that 
we are making the smartest investments we can with our limited, 
challenged resources and that they are in the best interest of 
the American people.
    Again, I want to thank the witnesses, particularly Dr. 
Lyons, today for being willing to provide their insights. I 
look forward to working with my colleagues on the other side of 
the aisle and with all of the stakeholders in this critical, 
critical area moving forward.
    Again, thank you, Chairman Lummis, and I yield back.
    [The prepared statement of Mr. Swalwell follows:]

              Prepared Statement of Subcommittee on Energy
                 Ranking Minority Member Eric Swalwell

    Thank you Chairman Lummis for holding this hearing, and I also want 
to thank this excellent panel of witnesses for their testimony and for 
being here today.
    For decades, the federal government has provided critical support 
for energy R&D. From solar and wind energy to natural gas recovery, 
many of the technologies that are helping us transition to a clean 
energy economy and creating entire new industries wouldn't be nearly as 
far along as they are today, or would not exist at all, without the 
benefit of federal support and public-private partnerships. The same 
certainly holds true for nuclear energy and in fact, NuScale Power, who 
we'll be hearing from today, has been working with Sandia National 
Laboratories.
    This morning we are here to discuss the federal role in the 
development and deployment of the next generation of nuclear power 
plants, and how this support may be better structured going forward. 
I'm eager to learn more about the costs and benefits of these new 
technologies over the course of the hearing--including ways we can 
improve the safety of new reactors to minimize the chance of another 
catastrophic event along the lines of the disaster that occurred at 
Fukushima just a few years ago.
    I have stated numerous times that I support an ``all of the above'' 
approach toward a clean energy economy and achieving safer, more cost-
effective, and environmentally friendly ways to utilize nuclear energy 
can play an important role in this mix. We just need to make sure that 
we are making the smartest investments we can with our limited 
resources, and that they are in the best interests of the American 
people. I want to thank the witnesses again for being willing to 
provide their insights today, and I look forward to working with my 
colleagues on the other side of the aisle and with all of the 
stakeholders in this critical area moving forward.
    Thank you again, Chairman Lummis, and I yield back.

    Chairwoman Lummis. Thank you, Mr. Swalwell.
    I now recognize the Chairman of the full Committee for a 
statement.
    Chairman Smith. Okay. Thank you, Madam Chair.
    Today's hearing will examine both current and future 
challenges and opportunities that face nuclear power.
    Nuclear power is a proven source of emission-free 
electricity that has been generated safely in the United States 
for over half a century. However, our ability to move from R&D 
to market deployment has been hampered by government red tape 
and partisan politics. We are just now seeing the first 
reactors under construction in more than 30 years. This hiatus 
has diminished our supply chain and ability to build new 
reactors. In fact, the United States no longer has the 
capability to manufacture large reactor pressure vessels.
    Today, we will hear from NuScale, a company that is the 
closest to navigating the Nuclear Regulatory Commission's 
licensing process to build and deploy the first small modular 
reactors in the United States, a subject that our colleague 
Dana Rohrabacher has long been interested in.
    We will also hear from Transatomic, a company recently 
formed by two graduate students from MIT that could 
revolutionize the energy sector. Transatomic's technology would 
recycle spent nuclear fuel, achieve higher levels of efficiency 
than existing designs, and yield minimum radioactive 
byproducts.
    The United States has not lived up to its potential when it 
comes to nuclear energy. The regulatory process is cumbersome 
and lacks the certainty needed for sustained investment in new 
nuclear energy technology. I am hopeful that this hearing can 
serve as a forum for how to enable nuclear power to meet more 
of our energy needs.
    Thank you, Madam Chair. I yield back.
    [The prepared statement of Mr. Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    Today's hearing will examine both current and future challenges and 
opportunities that face nuclear power.
    We will first hear from the Department of Energy on its research 
and development (R&D) strategy to ensure the United States' nuclear 
energy industry remains competitive. Our second panel will discuss the 
challenges that developers face in today's regulatory environment. 
Nuclear power is a proven source of emission-free electricity that has 
been generated safely in the United States for over half a century.
    However, our ability to move from R&D to market deployment has been 
hampered by government red tape and partisan politics. We are just now 
seeing the first reactors under construction in more than 30 years.
    This hiatus has diminished our supply chain and ability to build 
new reactors. In fact, the United States no longer has the capability 
to manufacture large reactor pressure vessels.
    Today, we will hear from NuScale, a company that is the closest to 
navigating the Nuclear Regulatory Commission's licensing process to 
build and deploy the first small modular reactors in the United States.
    We will also hear from Transatomic, a company recently formed by 
two graduate students from MIT that could revolutionize the energy 
sector.
    Tranastomic's technology would recycle spent nuclear fuel, achieve 
higher levels of efficiency than existing designs, and yield minimal 
radioactive byproducts.The U.S. has not lived up to its potential when 
it comes to nuclear energy. The regulatory process is cumbersome and 
lacks the certainty needed for sustained investment in new nuclear 
energy technology.
    I am hopeful that this hearing can serve as a forum for how to 
enable nuclear power to meet more of our energy needs.

    Chairwoman Lummis. I thank the Chairman.
    If there are Members who wish to submit additional opening 
statements, your statement will be added to the record at this 
point.
    Chairwoman Lummis. It is now time to introduce our first 
witness panel. Our first witness today is thw Honorable Peter 
Lyons, Assistant Secretary for the Office of Nuclear Energy at 
the Department of Energy. Dr. Lyons previously served as 
Principal Deputy Assistant Secretary for the Office of Nuclear 
Energy. Prior to joining DOE, Dr. Lyons was the Commissioner of 
the Nuclear Regulatory Commission focusing on safety and 
operating reactors.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which Members of the Committee have 
five minutes each to ask questions. Your written testimony will 
be included in the record of the hearing.
    So without further ado I now recognize our witness Dr. 
Lyons.

            TESTIMONY OF THE HONORABLE PETER LYONS,

         ASSISTANT SECRETARY, OFFICE OF NUCLEAR ENERGY,

                   U.S. DEPARTMENT OF ENERGY

    Mr. Lyons. Thank you very much.
    Chairman Lummis, Ranking Member Swalwell, and Members of 
the Committee, thank you for your invitation to testify at the 
Committee's hearing today on the future of nuclear energy.
    Nuclear energy continues to play a vital role in President 
Obama's all-of-the-above energy strategy for a sustainable 
clean energy future. Nuclear energy has provided nearly 20 
percent of our electrical generation over the past two decades 
and now produces over 60 percent of our zero carbon 
electricity.
    In order for nuclear energy to continue this role, the 
Office of Nuclear Energy, or NE, focuses on programs to improve 
the reliability, performance, and operating lifetime of current 
reactors, support the deployment of affordable advanced 
reactors, develop a sustainable nuclear fuel cycle, maintain 
key infrastructure, and manage international collaborations.
    The current light water reactor, or LWR fleet, is 
challenged by economic conditions that contributed to the early 
closure of four reactors in 2013 in addition to the imminent 
retirement of the Vermont Yankee plant. The shutdown of these 
power plants is a significant loss of low carbon electricity. 
Nevertheless, we remain optimistic with the current 
construction of five nuclear reactors, four of which are the 
Westinghouse AP1000, a new generation of passively safe 
reactors. Two of these plants received over $6 billion in loan 
guarantees, and for future assistance, the Department recently 
released a $13 billion loan guarantee solicitation for advanced 
nuclear energy projects.
    In conjunction with industry and, more appropriate, the 
NRC, the LWR Sustainability Program supports the current fleet 
for possible license renewals beyond 60 years, and this program 
also addresses the lessons learned from the Fukushima Daiichi 
accident.
    A high priority of the Department is to accelerate the 
commercialization and deployment of small modular reactors or 
SMRs with our Cost-Shared Licensing Technical Support Program. 
SMRs can promote American competitiveness, create domestic 
manufacturing jobs, and help reduce CO<INF>2</INF> emissions. 
The two small modular LWRs supported by the Department feature 
extremely impressive passive safety.
    Future reactor systems may employ advanced designs to 
improve performance beyond what is currently available. 
Coolants other than light water may enable reactors to operate 
at higher temperatures with improved efficiencies and 
economics, as well as optimize their waste forms. The 
Department has supported industrial R&D on these advanced 
reactor designs through cost-shared agreements, as well as 
supported R&D at national labs and universities. In addition, 
we also continue to leverage international experience through 
the Generation IV International Forum.
    Progress towards a consent-based solution to managing the 
nation's nuclear waste and used fuel remains a challenge that 
must be addressed. In January 2013 the Administration released 
its strategy for this task. And pursuant to that strategy, my 
office is undertaking activities within its existing authority 
to plan for the eventual transportation, storage, and disposal 
of used nuclear fuel, as well as R&D on related topics.
    By way of conclusion, any programs encompass all aspects of 
nuclear power including support for the nation's 100 operating 
LWRs which remain a vital national resource of safe, clean 
energy but new plants are also needed. Past programs like the 
cost-shared NP 2010 program provided two certify designs for 
passively safe, large LWRs, and in an analogous way, our 
current licensing technical support program strives to provide 
design certification for two SMRs. If we are successful with 
that program, the nation will have two complementary approaches 
to new plant construction well matched to the wide range of our 
domestic needs, as well as addressing international markets.
    In planning for future advanced reactors it is appropriate 
to remember the words of Hyman Rickover when he discussed the 
differences between paper and real reactors. He noted the 
challenges of bringing a new reactor design online are 
substantial and are hard to fully anticipate as the project is 
planned. His words are not a reason to forgo development of 
advanced reactors but they should remind us of the challenges 
inherent in such endeavors even though several of the advanced 
concepts have some operational history.
    In the United States we have comprehensive knowledge of 
LWRs. We can design and regulate them with highest confidence 
for safe operations. Today's advanced concepts will be deployed 
only if they are based on the same confidence that we have 
today for LWRs. Research today should focus on providing that 
level of confidence for these new concepts for tomorrow.
    To use advanced reactors in the future we need to maintain 
a strong domestic nuclear energy industry, including utilities, 
with operational experience on nuclear systems. In the near 
term the latest generation of LWRs and the promising new SMRs 
must serve as an essential bridge between the reactors of today 
and the future potential for new reactor designs. And without 
that bridge any path towards non-light water reactors will be 
challenging.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Lyons follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Lummis. I thank the witness for his testimony.
    I will remind the Members that Committee rules limit 
questions to five minutes and the Chair at this point will open 
the questioning.
    Now, I want to set this up, Dr. Lyons, to see if I 
understand this correctly. The Energy Policy Act of 2005 
established the Next Generation Nuclear Plant project, and as I 
understand that, it was to develop a prototype reactor for an 
eventual hybrid energy system. And it was supposed to be 
accomplished through cost-shared R&D, as well as design, 
construction, and operation on behalf of the Alliance. Now, is 
that a quick summary, an accurate summary of the NextGen 
Nuclear Plant project?
    Mr. Lyons. Yes.
    Chairwoman Lummis. Okay. Then, it is also my understanding 
that DOE and the NextGen Nuclear Plant Alliance have reached 
somewhat of an impasse over cost-shared distribution, that the 
Alliance is asking the Department to frontload its portion of 
cost-share while DOE maintains a cost-share at 50/50 throughout 
going from day one until it comes online.
    I understand also that there have been some successes thus 
far in this program, including the development of TRISO fuel, 
so I am very interested in knowing is there an impediment for 
DOE to exercise its authority to host, for example, private 
development of prototype reactors at a DOE site?
    Mr. Lyons. Thank you for those questions, all very good 
ones. And there are several different questions inherent in 
what you just asked.
    Your description of NGNP I believe is accurate. Very 
successful R&D has been conducted on that program. You 
mentioned TRISO fuel. We now have very high confidence in our 
ability to produce TRISO fuel to the highest standards and 
TRISO fuel is capable of withstanding extremely high 
temperatures in any accident scenario. It is an incredibly 
robust type of fuel which we believe can have applications in 
many, many future systems. There are other areas of strong 
research for NGNP. I am sorry, other areas of strong research 
that were conducted as part of NGNP.
    Now, you are also quite right that as we came to the point 
in our R&D programs where it became feasible to look towards 
actually moving ahead with a demonstration reactor, we asked 
our advisory committee to evaluate the status of the research. 
At the same time we were discussing with the NGNP alliance 
their interest in moving ahead.
    I might note that when we started the NGNP program, there 
were a number of studies which pointed out the cost efficiency 
of this approach for gas greater than $8, and when we started 
NGNP--and I have to admit I was one of the co-authors of the 
language--when we started that program, gas was way over $8.
    Chairwoman Lummis. Yeah.
    Mr. Lyons. At the time we got close to being able to move 
towards a developmental program; that was definitely not the 
case.
    Chairwoman Lummis. Um-hum.
    Mr. Lyons. And while, when we initially wrote the language, 
there was very strong interest from industry in looking towards 
the 50/50 cost-share, as we moved towards the point in time 
when we could have started into development, as you described 
correctly, their interest was in the DOE frontloading the 
expenses and they might--they would pick it up later if they 
deemed appropriate. That is not my understanding of the 
Congressional intent on cost-sharing as written in EPAct '05, 
and furthermore, to accomplish what they would have suggested 
would have taken essentially the entire R&D budget of my office 
simply for NGNP.
    So we have continued the research on the TRISO fuels, the 
graphites, we have continued to work with and even to some 
extent support the NGNP Alliance as they look towards possible 
opportunities in the future. But this question of what is the 
appropriate cost-share certainly could be the subject of more 
discussion within Congress and exactly how the intent was to 
formulate that cost-share, but in my mind, it is important to 
have strong industry support, as evidenced by cost-share, 
before one moves ahead to actually build a prototype reactor of 
any of these.
    You also, right at the end, asked the possibility of 
utilizing--I think you said DOE sites in moving ahead with 
advanced reactors. I think that is also a subject of great 
interest. We can certainly discuss it further. I am not aware 
of any fundamental impediments to that. There would be a number 
of challenges and I think we could talk through what those 
challenges might be if you wish.
    Chairwoman Lummis. I would like to go there. Can you tell--
oops, my time is expired. That went really fast.
    Chairman Smith. You can have more time if you want.
    Chairwoman Lummis. Oh, well, thank you, Mr. Chairman.
    I do think that I will recognize Ms. Bonamici for five 
minutes.
    Ms. Bonamici. Thank you very much, Madam Chairwoman, and 
thank you for allowing me to join you this morning even though 
I am on the full Committee, not on this Subcommittee. I wanted 
to be with you today, especially because of Mr. McGough from 
NuScale. But thank you so much, Dr. Lyons, for being here.
    I wanted to ask you, the Energy Policy Act of 2005 created 
the--of course the Next Generation Nuclear Plant project along 
with timelines for completing each of the project's three 
phases. Apparently, there have been some barriers that have 
arisen. Can you just talk a little bit about the reasons for 
the delays in that project and then I want to save time for 
another question as well, please.
    Mr. Lyons. Thank you for the question. I think I tried to 
address some of that on the previous questions.
    I think the research on NGNP has gone extremely well. We 
have made dramatic progress. But as I indicated, at the time 
NGNP was formulated, there were many studies saying $8 gas was 
the breakeven point. We don't have $8 gas today and we are way 
below the breakeven point.
    There--I also just alluded to the I would say difference in 
opinion between the NGNP Alliance and me, my office, on what it 
means to cost-share. Their proposal was that we construct the 
reactor and they would--and I am paraphrasing this greatly--but 
that we would construct the reactor and that they would decide 
later if they wished to build the actual systems, operational 
systems, and that over the long run one would achieve a 50/50 
cost-share.
    My understanding of EPAct--I think it is Section 988 
perhaps of EPAct--was that a cost-share means a continual cost-
share over the life of the program. Now, that could be subject 
to interpretation and certainly for evaluation by Congress. I 
hope that is at least a bit of an answer.
    Ms. Bonamici. Yes, thank you for expanding on that.
    And then Mr. Swalwell in his opening remarks talked about 
the issue of safety, which of course our constituents are 
concerned about as well. And I represent a district out in the 
northwest where we spend a lot of time talking about resilience 
and what will happen. We are--we have the Cascadia Subduction 
Zone off our coastline and we are having a lot of conversations 
about how we deal with the eventual earthquake and tsunami.
    So can you talk a little bit about the lessons that the 
Department has learned from the Fukushima disaster, what work 
is being done, not necessarily just in siting but in structure, 
to make sure that there is that preparation for sites in areas 
like the Northwest where there will eventually be earthquakes 
and tsunamis?
    Mr. Lyons. Thank you for that question as well.
    If I were to start with the lessons--well, I could talk for 
days on the lessons of Fukushima. However, if I were to start 
with the single most important lesson it was on the importance 
of having an independent regulator. They--Japan did not have an 
independent regulator like the NRC. While I was at the NRC, 
there were many advances that were made in U.S. plants, for 
example, to prevent--to respond to a station blackout. We 
shared that information with the Japanese regulator at that 
time. The Japanese regulator did not elect to make those 
requirements on Japanese plants. Japan has now moved to an 
independent regulator away from their previous system where 
their regulator was part of METI and the I in METI is industry. 
So, number one lesson, have an independent regulator. We have 
one and I was proud to serve with the NRC.
    In terms of lessons from the actual events at Fukushima, 
certainly the NRC has evaluated those but I think it is also 
fair to say that our plants are extremely well prepared because 
of any number of requirements that we have required--that we 
had demanded of the nuclear industry.
    But specific areas of research on which we have--what we 
have expanded post-Fukushima, one would be so-called accident-
tolerant fuels. The current generation of fuel systems use a 
zirconium cladding. Under accident conditions that creates 
hydrogen. When you have too much hydrogen, things blow up and 
there were--and that took a very bad day at Fukushima Daiichi 
into an absolute crisis.
    We believe it is possible to generate--and to come up with 
a new generation of fuel systems that would greatly minimize 
the production of hydrogen under an accident scenario. That has 
been very well supported in Congress, about 60 million a year. 
We have been making dramatic progress.
    Introducing a new fuel system is a big deal in the nuclear 
industry and that is going to take more than a decade to do 
this but we are making good progress. There are good ideas and 
it is my hope that we will start testing probably in 2018 on 
the initial--we will make some down-selects in 2016. We will 
have the first testing--trenchant testing in 2018 for accident-
tolerant fuels. And if we can develop that, that will be 
another significant step forward.
    But on other points--and I am sorry I am probably taking 
too much time here--you mentioned an interest in NuScale in the 
small module reactors. The fact that NuScale and any of the 
SMRs are--that we are interested in--are sited underground, it 
gives them substantially more seismic resistance. In addition, 
the design of the NuScale plant increases--it is a long word, 
the probabilistic risk assessment of the plant, the probability 
of an accident is many decades lower in the NuScale design. 
That plant is dramatically safer than our existing plants, 
which are already very safe. And again----
    Ms. Bonamici. Terrific. I look forward to hearing from Mr. 
McGough about that.
    My time is expired and thank you, Madam Chairwoman.
    Chairwoman Lummis. I thank the gentlelady and yield to the 
gentleman from Texas, Mr. Smith.
    Chairman Smith. Okay. Thank you, Madam Chair.
    Let me continue following up on that same subject that was 
mentioned by the Chair a few minutes ago, that is to say the 
cost, but on the way there, Dr. Lyons, thank you for your 
encouraging remarks. You are being very positive. You are 
talking about how we can improve things for the future and that 
is what this hearing is all about.
    We have been told that sometimes it costs up to $1 billion 
to get through our NRC's licensing process. Is there any way to 
reduce the cost of that? I have several questions. Is there any 
way to reduce the cost? Is there any way to streamline the 
process? Is there any way to make it easier to construct safe 
nuclear reactors in the future?
    Mr. Lyons. Thank you for that question, and again, there 
are many ways I can answer that question.
    The billion-dollar number is frequently used but let's 
remember that that billion is far more than just what--than 
just the actual work done by the NRC. In order--under Part 52, 
the new licensing approach at the NRC, the vendor--and NuScale 
if you want to use them as an example--has to prepare a very 
complete design. They have to go way into the engineering 
details of the plant in order to answer all of the questions 
from the NRC under Part 52. Now, under Part 52 the goal is that 
you end up with a certified design, and once you have that 
certified design, as long as you stay with it, then you don't 
go back through the safety analysis again. And that is believed 
to be a very effective way of advancing nuclear power in this 
country.
    Chairman Smith. So part of the cost is the design which 
they would have to do anyway, is that what you are saying?
    Mr. Lyons. Yes.
    Chairman Smith. Okay.
    Mr. Lyons. And I think it is fair that we talk about a 
billion that we recognize----
    Chairman Smith. Okay.
    Mr. Lyons. --that that is included but at the end of the 
game you end up with success with a certified design but then 
you can take to any site in the country and not go back through 
the safety analysis.
    Chairman Smith. Okay. And let me follow up again on those 
other questions. I think it takes close to, what, five years to 
get through the regulatory process now? I am not sure how many 
years but that is what I have read but how can we expedite the 
process? It just seems to me that if we are trying to 
accomplish the good designs, if we are trying to increase 
nuclear energy, there is bound to be a way to try to actually 
encourage companies to go that direction and to not unduly 
prolong the process.
    Mr. Lyons. As the NRC has evaluated the SMR designs, they 
have published a schedule of 39 months that they intend to 
follow once an application is filed. That remains to be tested 
and I am certainly hoping they will succeed.
    You asked what could possibly be done to improve that. I 
would note that NuScale, as one of the SMRs that we are 
supporting, has taken advantage of the so-called pre-licensing 
process in which they can submit white papers to the NRC on 
specific design aspects and gain comments back from the NRC. I 
think that is a very effective way of perfecting a design.
    If you ask me for one possible improvement in that, right 
now, the NRC delivers an informal opinion on those white 
papers. I think one could imagine that it could be even more 
useful to companies like NuScale or mPower if it was a formal 
decision, and that might be a question that you address through 
NuScale----
    Chairman Smith. How much time would that save?
    Mr. Lyons. Well, I think what it would do would be to 
provide far more confidence to a vender that what they have 
submitted in a white paper and had some pre-analysis is 
actually going to be accepted. Right now, there is 30 or more 
white papers that are put in, they have got comments on all of 
them, but they don't have the confidence that there won't be a 
change later when the commission evaluates it.
    Again, this is just a suggestion and it certainly would be 
appropriate to discuss with NuScale and with the NRC.
    Chairman Smith. Okay. And is this a subject that you are 
discussing with NRC? You have some control over what they do. 
Are you encouraging them to expedite the process and reduce the 
cost if it is possible?
    Mr. Lyons. Well, we continue to have frequent interactions 
with the NRC on all of our programs and keep them as informed 
as we can on the directions that we are going----
    Chairman Smith. Yeah.
    Mr. Lyons. --and asking how we--how our research can help 
them.
    Chairman Smith. Yeah. I guess I am looking to see if you 
will go beyond just keeping them informed and actually try to 
spur them to take some steps to reduce the cost and the time 
involved with the licensing process.
    Mr. Lyons. The reason I am giving you a delicate answer is 
they are an independent agency. They highly value their 
independence. I know that having served there. And I think one 
probably wants to be a little bit judicious in how strongly one 
makes suggestions that could be interpreted as undermining 
their independence.
    And I just made the comment, too, about the importance of 
an independent regulator to avoid a Fukushima, too, so it is 
important.
    Chairman Smith. Independent agencies need oversight and 
suggestions as well so----
    Mr. Lyons. And certainly that is--yes.
    Chairman Smith. Okay. Thank you, Dr. Lyons.
    Thank you, Madam Chair.
    Chairwoman Lummis. The Chair now recognizes another Member 
of the Texas delegation, Mr. Veasey.
    Mr. Veasey. Thank you, Madam Chair.
    I wanted to talk with you a little bit about the stages for 
licensing advanced reactors. We have received testimony that 
there should be stages of review by the NRC similar to how the 
FDA has three phases of review before a new drug is allowed to 
go out onto the marketplace. The argument is that this would 
provide much earlier and a clearer signal to investors that a 
new nuclear technology is meeting or failing criteria set by 
the NRC. As a former NRC Commissioner do you have any thoughts 
on this?
    Mr. Lyons. Well, thank you for that question and I would go 
back to my comment of just a few minutes ago on the pre-
licensing reviews. I think those are an extremely effective way 
of a company testing the waters if you will, starting to raise 
appropriate questions with the NRC, and gaining feedback from 
the staff.
    Now, this--also the suggestion I made just a minute ago was 
I think it would be worth discussing with the NRC whether to 
carry it out a little bit further and instead of just a staff 
opinion that comes back maybe asking if that opinion have a 
little bit more weight so that the--a potential vendor would 
have more confidence that if they stay with a particular design 
aspect that it will be accepted by the Commission later on. So 
I think that is at least an approach towards the question you 
have asked.
    Mr. Veasey. Thank you very much. As far as the 
commercialization of advanced reactors again, what do you 
believe are the necessary components of a public-private 
partnership that can ultimately take these advanced reactors 
from the lab to the marketplace?
    Mr. Lyons. At least one example has been the NP 2010 
Program, highly successful program that Congress supported for 
a number of years which was cost-shared with both Westinghouse 
and GE and has led to certified designs. We are trying to do 
exactly the same thing with the small modular reactors. We may 
get to the point where there is sufficient maturity of some of 
the non-light water designs that it would be--that Congress 
might want to consider that in the future.
    In any case, my point would be that the cost-shared--that 
the cost-shared work towards design certification has already 
proven to be very successful. In the case of NP 2010 in the 
case of the SMRs, at present we have not asked for support 
beyond the design certification anticipating that at that point 
there is sufficient information for industry to make their own 
decisions and, of course, the loan guarantee program that the 
Department has also consists in this.
    Whether one can go still further, one could if that were 
deemed appropriate from a Congressional standpoint, and 
certainly cost would escalate appropriately.
    Mr. Veasey. What about steps that commercial vendors and 
utilities need to take to ensure their ability to accept 
advanced reactor technology as part of their energy portfolio?
    Mr. Lyons. I think part of that answer will be addressed by 
Dan Lipman in his testimony on the next panel. I found his 
testimony very interesting where he notes that industry has 
formed a working group now devoted to advanced reactor 
technologies. That is somewhat analogous to what they did 
during the time when we were working on design certification of 
the Westinghouse and GE reactors. They have a similar model 
that they are using now on the small modular reactors and I 
think in general having industry organize to explore their own 
interests in any particular reactor design is highly 
advantageous.
    Mr. Veasey. Madam Chair, thank you very much. I yield back 
my time.
    Chairwoman Lummis. I thank the gentleman and recognize the 
gentleman from Texas, Mr. Weber.
    Mr. Weber. Thank you.
    Dr. Lyons, as you know, the United States has engaged in 
ongoing climate negotiations with the U.N., final agreement 
expected in Paris 2015. Do you believe that the benefits of 
nuclear power should be specifically recognized in the UNFCCC 
agreement to be reached in Paris?
    Mr. Lyons. I guess I would answer, Mr. Weber, that 
certainly the benefits of clean energy need to be recognized. 
Whether nuclear needs to be called out specifically in that, I 
don't have an opinion. There are many, many studies showing 
that in order to achieve the clean energy desired in the future 
that nuclear will be a significant part.
    Mr. Weber. Do you know of any other energy as reliable and 
capable of producing the kind of megawatts necessary as nuclear 
energy?
    Mr. Lyons. Well, that is why any of the studies that I am 
referencing, for example, the recent World Energy Outlook from 
the International--IEA, International Energy Agency, notes the 
importance of a strong nuclear component looking into the 
future for exactly that reason.
    Mr. Weber. So that is kind of a roundabout way of saying 
yes?
    Mr. Lyons. Well, again, I am saying I don't think that you 
can achieve what we need without nuclear but I also think----
    Mr. Weber. But I mean the importance of recognizing it in 
the agreement reached in Paris?
    Mr. Lyons. The only reason I am hesitating, sir, is that 
different communities, different regions, different countries 
are going to have different mixes of power appropriate to 
whatever their situation is.
    Mr. Weber. Yeah, but let's focus----
    Mr. Lyons. So I don't want to----
    Mr. Weber. Let's focus on the United States, though.
    Do you think emissions--let me back up. What role will 
nuclear play in meeting global emissions targets that we can 
expect in the agreement in Paris? I mean we have already talked 
about 60 percent of the energy would--basically zero emissions 
so would you expand on that a little bit for us?
    Mr. Lyons. Well, I would just again note that any study I 
have seen--I happened to reference the World Energy Outlook 
that was published just recently--certainly notes that nuclear 
is going to have to play a strong role----
    Mr. Weber. Okay.
    Mr. Lyons. --as we look forward into--to reach the goals 
that are in--that are----
    Mr. Weber. Sure.
    Mr. Lyons. --required.
    Mr. Weber. So that is to say that you don't believe those 
targets could be reached without nuclear when you say it has to 
play a strong role?
    Mr. Lyons. That is--I believe that is true and that is 
consistent with the President's all-of-the-above strategy.
    Mr. Weber. Do you know if the new Green Climate Fund for 
international mitigation efforts can be used to support nuclear 
projects?
    Mr. Lyons. I do not know, sir. .
    Mr. Weber. Okay. Do you believe it should be used to 
support nuclear projects? Noting your earlier comments, you 
can't reach those targets without nuclear.
    Mr. Lyons. I know so little about that fund that I 
hesitate, sir. .
    Mr. Weber. Yeah.
    Mr. Lyons. I mean in general, yes, I think nuclear should 
be recognized for its clean energy--.
    Mr. Weber. But you do get paid to work--you do get the 
money, right, so you know a little bit about money, and so if 
we have got dollars being spent for Green Climate Fund and 
nuclear is--you said you can't reach that target without 
nuclear, doesn't that make sense that some of that fund should 
perhaps be used to support nuclear projects?
    Mr. Lyons. Again, I am not sufficient--nuclear is going to 
be a part of a future solution. I don't know enough about that 
fund to give you a credible answer, sir. .
    Mr. Weber. Well, it is dollars for Green Climate Fund and 
it seems like we ought to be including nuclear in that.
    Let's change over to Yucca Mountain for a second. In a 
letter to NRC Chairman Macfarlane dated November 18, 2014, from 
Senator Patty Murray, she stated ``Over the last 30 years, 
independent studies have pointed to Yucca Mountain as the 
nation's best option for a nuclear repository for high-level 
waste. At the same time, Congress in every previous 
Administration have voted for, funded, and supported pursuing 
this option. The recent completion of Volume 3 of SER reaffirms 
that Yucca Mountain is the right solution for the United 
States.'' Do you agree with Senator Murray?
    Mr. Lyons. The fact that the SER Volume 3 stated the safety 
from a post-closure standpoint of Yucca Mountain is not a 
surprise. The Department submitted our application for Yucca 
Mountain in 2008. It doesn't change the fact that we believe--I 
believe strongly that Yucca Mountain is not a workable solution 
and I would be happy to go into that in as much detail as you 
would like. I have spent a lot of my career involved with Yucca 
Mountain.
    Mr. Weber. Are you familiar with the Waste Control 
Specialists site low-level radiation out in Andrews, Texas?
    Mr. Lyons. I have visited them multiple times.
    Mr. Weber. Okay. What is the difference between a low-level 
radiation and high-level radiation, notwithstanding the 
obvious? When you use fuel rods, for example, we expend most of 
them and I understand France has a method for reclaiming a lot 
of that energy--what is the difference between low-level waste 
and high-level waste? Can you expand on that? And I am out of 
time but if you can do that quickly.
    Mr. Lyons. In this country we have a definition of high-
level waste that refers to its use in a reactor and ties it to 
used fuel. However, the--a simpler definition is simply as you 
said; it is kind of obvious. One is low and one is high-level 
radiation. As far as France--and we could talk about France a 
great deal if you want in the future----
    Mr. Weber. But when you use fuel in nuclear reactors, do we 
not try to use up all of that energy and all of that fuel?
    Mr. Lyons. With our current generation of light water 
reactors we come nowhere close to using the full energy content 
of the fuel resource.
    Mr. Weber. Okay.
    Mr. Lyons. That is one of the advantages of advanced 
reactors.
    Mr. Weber. Okay. Thank you. I yield back. Thank you.
    Chairwoman Lummis. I thank the gentleman.
    The Chair recognizes the gentleman from California, Mr. 
Swalwell.
    Mr. Swalwell. Thank you, Madam Chair.
    And, Mr. Lyons, as you know, I represent Lawrence Livermore 
National Laboratory and Sandia National Laboratory in 
Livermore, California, and while these labs do not work 
directly on nuclear energy, I know that Sandia, for example, 
played an important role in the accident response and after-
accident analysis with respect to Fukushima. And I was hoping 
you could tell us about the role our national labs are playing 
to keep us safe, as well as how important it is that our 
national laboratory system advances science, and how DOE is 
utilizing our national labs to ensure that we are doing 
everything we can to keep existing reactors safe.
    Mr. Lyons. Thank you, Mr. Swalwell.
    There is no question that our national laboratories are an 
incredible national resource for science and technology. I make 
extensive use of all of the national laboratories in my 
program. Livermore is not one of the predominant ones. Sandia 
is. You mentioned Sandia's very strong capabilities in severe 
accident management and a number of other areas that are 
ongoing at Sandia and I have extensive funding at Sandia.
    But in general the national labs are a vital resource and I 
make extensive use of them.
    Mr. Swalwell. Great. And, Mr. Lyons, I and many people in 
my district have strong concerns about the safety of nuclear 
energy and I was hoping you could tell us about the research 
that the Department of Energy is conducting to improve existing 
technology and make our nuclear plants safe.
    Mr. Lyons. The--I would first start with the Accident-
Tolerant Fuel Program that I mentioned a little bit earlier. 
The national labs, industry, and universities are heavily 
involved in the Accident-Tolerant Fuels Program where we are 
seeking to develop a class of fuels that would ideally not emit 
hydrogen, at least emit far less hydrogen in an accident 
scenario. And it was the hydrogen explosions at Fukushima 
Daiichi that took a very bad situation into a catastrophe.
    Mr. Swalwell. And, Mr. Lyons, could you talk more about 
Sandia's nuclear accident modeling software MELCOR?
    Mr. Lyons. MELCOR has been vital throughout the industry. I 
was over at--in Tokyo within days of Fukushima, as were leaders 
from the Sandia Severe Accident Program. MELCOR was used 
extensively post-Fukushima. We continue to use MELCOR. MELCOR 
is the prime code used in this country for severe accidents and 
both we and the NRC use it extensively.
    Mr. Swalwell. Great. Thank you, Dr. Lyons, and I yield back 
the balance of my time.
    Chairwoman Lummis. I thank the gentleman.
    The Chair now recognizes the gentleman from Kentucky, Mr. 
Massie.
    Mr. Massie. Madam Chair, I just want to say thank you and 
thank you for letting me serve on your Subcommittee. It has 
been a pleasure serving here for you and with you on the 
Oversight Committee. I will note that one of your questions 
went viral on YouTube the other day on Oversight. If only we 
could get something in the Energy Subcommittee to go viral. 
Maybe we need to bring a working reactor here for that to 
happen. That might get it done.
    I have always been a supportive of an all-of-the-above 
energy plan both in public life and in my private life. I 
started a company right off the MIT campus and the directions 
to our company were take a right at the nuclear reactor and a 
left at the candy factory. So we were never worried about the 
safety of that.
    I was astounded; I looked at the cost of that nuclear 
reactor. It only cost $3 million to build that in 1956. Yeah. 
But even accounting for inflation that was astounding and there 
is something wrong about the price of nuclear energy right now, 
the fact that it costs so much to build a new plant these days.
    You know, in my personal life I drive a Tesla. It is an 
electric car but it has Friends of Coal license plates just so 
people know where the energy comes from. To balance out the 
karma there I live off the grid. I just added 3 kilowatts of 
solar panels to my 10 kilowatt array, and I used to work in an 
oil refinery.
    But I find it disturbing that the State of Kentucky has a 
moratorium on building any nuclear plants and I think that is a 
problem, I think it is wrong, and I think it is to the 
detriment of the citizens of Kentucky unfortunately.
    But, there is sort of public opinion about this and the 
elephant in the room here is what do we do with the nuclear 
waste? And I think Mr. Weber asked you earlier about Yucca 
Mountain and that is sort of my question. We see trucks going 
through the district that have canisters that have nuclear 
material in them. What are we going to do about the nuclear 
waste? If the answer is not Yucca Mountain, what is the answer?
    Mr. Lyons. The Administration published a strategy in 
January of 2013 based on the recommendations of the Blue Ribbon 
Commission.
    Mr. Massie. What is your recommendation?
    Mr. Lyons. I think the Blue Ribbon Commission had fabulous 
suggestions, to move ahead with a consent-based process. And I 
think that if there was a legislative basis to move ahead with 
a consent-based process----
    Mr. Massie. What does that mean for my constituents back 
home, consent-based process? What is the answer is what we want 
to know? And I only have two minutes and I know it is more 
complicated than that.
    Mr. Lyons. I think consent basis means frankly exactly the 
opposite of the Yucca Mountain situation. I grew up in Nevada, 
worked in Nevada, worked at the test site, worked with Yucca 
Mountain, directed the research on Yucca Mountain. I know it 
rather well. But I also am well aware that the Nuclear Policy 
Waste Act amendments of '87 are viewed in Nevada as the ``screw 
Nevada'' bill. There was never a consent basis at--in Nevada 
for the--for Yucca Mountain and it has led to a rather--to say 
it is polarized is putting it mildly.
    Mr. Massie. If the----
    Mr. Lyons. On a consent basis we would avoid that.
    Mr. Massie. If nuclear energy is going to flourish and 
remain a viable option for us, we have to solve this problem. 
Do we have time to do this consent-based process? Or, I am 
sorry, consensus?
    Mr. Lyons. Well, I would submit that if we don't do a 
consent-based process, we will have rate difficulties ever 
succeeding. So the--we--the current storage of the used fuel in 
pools and dry casks is safe but there is no question that that 
is not a long-term solution. And eventually we need to move, I 
believe, as the BR--Blue Ribbon Commission said, to centralized 
interim storage and to a repository but doing it on a consent 
basis. And there are a number of communities, in some cases 
even states that have expressed interest in being considered 
for housing such facilities. And I think if we tried on a 
consent basis, discussed how this could be done with the utmost 
attention to safety, I think we could succeed.
    Mr. Massie. I think we have to succeed with doing something 
with the waste because this is the elephant in the room, what 
are you going to do with it? And this is what drives public 
opinion I think. I am convinced that the safety issue has been 
solved but clearly dealing with the waste has not been solved.
    Let me switch to a lighter topic because I would be remiss 
if you were here and I didn't get a chance to ask this question 
for my constituents who are always asking me about this. Does 
thorium have a place in our nuclear future?
    Mr. Lyons. We have evaluated thorium-based cycles many, 
many times. Given that we have made a massive commitment in 
this country to a uranium-based cycle, I see no compelling 
reason to move towards a thorium cycle. I--
    Mr. Massie. If we weren't so heavily invested though in 
this path, does it make sense? I mean does it make sense in 
other countries that----
    Mr. Lyons. If you are starting from scratch, I think one 
could make a decision to go either way but some of the claimed 
advantages for thorium, which I hear frequently from people who 
would like us to put more money into thorium such as that it is 
proliferation-resistant, are simply false. There was a recent 
report done by the Nuclear Energy Agency of the OECD on thorium 
systems which certainly made this point, that they are anything 
but proliferation-resistant.
    Can you make them work? Yes, you can make them work. Is 
there an advantage to doing it? I haven't seen it.
    Mr. Massie. Thank you very much. I--my time is expired.
    Chairwoman Lummis. I thank the gentleman, recognize the 
gentleman from Texas, Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Madam Chairman.
    Dr. Lyons, according to recent reports from some of the NGO 
organizations that there is a significant chance that nuclear 
power plants may close as a result of low natural gas prices 
and renewable energy subsidies, to what extent has DEO--DOE 
assessed those scenarios?
    Mr. Lyons. We have studied that, sir, in considerable 
detail. We are very concerned that the closure of any clean 
energy resource in the nation only complicates our eventual 
quest for a--an overall clean energy system. As we have 
evaluated the reasons for some of those closures and some of 
the economic pressures, we have yet to identify a federal lever 
that could be used to protect those plans. Most of what can be 
done is on a State basis and there are widely publicized 
negotiations going on in a number of States, certainly Illinois 
and New York would be two very prominent, where there are 
negotiations at the State level that might involve power 
purchase agreements as one example in order to keep marginally 
economic nuclear power plants online under the current market 
system.
    There also are efforts, for example, in PJM region to move 
towards a so-called capacity auction that would do a better job 
of valuing the attributes of nuclear, that it is always there, 
very reliable, highly resilient, very important in maintaining 
overall good stability. Those are not attributes that are 
currently valued as perhaps they might be and it is--these 
questions of how the markets value nuclear power remains a 
complex issue but I think that PJM in their region of the 
country are starting to ask these very important questions.
    Mr. Neugebauer. So I guess one of the questions--and do we 
have conflicting policy in some way where we are subsidizing 
other renewables and so making it difficult to actually have 
price discovery of what is the market, for example, power 
because we are distorting that in some ways with some of these 
subsidies?
    Mr. Lyons. Well, I think it is fair to note that there is a 
number of different factors that are entering into these 
questions. Certainly low natural gas prices, while a tremendous 
boon for the country, also are at least challenging to any of 
the clean energy systems. There is also flat or decreasing 
electrical demand in many parts of our country as more and more 
efficiency measures are coming into play. That, too, makes it 
very difficult, so there is a number of different stresses on 
the nuclear power plants. And particularly for the relatively 
small single unit sites, they are the ones under the greatest 
stress and those are the ones that, as I indicated, that we 
have been discussing whether there is a direct federal action 
and we haven't found it yet. We are still--if we find it, that 
would certainly be interesting.
    Mr. Neugebauer. So on one of the things that I guess--and I 
am always a little reluctant to point out France but one of the 
things that they have done over the years, they have a pretty 
robust nuclear presence over there and one of our opportunities 
to sit down with some of the people over there--and of course 
they recycle a lot of their nuclear waste and to the point 
where they--as I understand it--I am--don't understand all of 
the science of it but they reprocess a lot of the--and what 
they basically said is that we keep reprocessing and 
reprocessing and reprocessing and so the volume ultimately that 
we dispose is much smaller. Is that something that the United 
States should be thinking about?
    Mr. Lyons. Well, first, we have robust programs looking at 
R&D on advanced reprocessing.
    Reprocessing certainly opens many questions, including 
nonproliferation and environmental ones. It is fair to say that 
the type of reprocessing that is done in France at La Hague 
would not be licensed in the United States with the level of 
emissions that they have. It also would be somewhat misleading 
to say that they reprocess over and over. They reprocess once, 
go to MOX fuel, and then they are storing the MOX fuel.
    Now, their eventual goal is to move towards fast reactors 
and closing the fuel cycle. They are a long ways from doing 
that but they are going at least one step of reprocessing and 
at least--I would--I think I have made the point that from--our 
concerns would be both from an environmental and 
nonproliferation standpoint, which is why we have the research 
programs to continue to evaluate options looking into the 
future. And I think the country may at some point want to 
evaluate whether they want to move towards a closed cycle, but 
in my mind that would be made after one has demonstrated a 
repository because you need a repository whether it is an open 
or a closed cycle. France still needs a repository. They are 
building one.
    Chairwoman Lummis. I thank the gentleman.
    And the Chair without objection will recognize Mr. 
Rohrabacher from California for five minutes.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    And let me congratulate you on a tour of duty here on this 
Committee and you have done us proud and served your country 
well with the leadership you have provided, and we wish you all 
the luck and we will be working with you on your new assignment 
as well.
    So I am a bit disturbed by some of the directions that we 
are talking about today and I know we have had this exchange 
before and it just seems to me that when we talk about the 
development of Next Generation Nuclear Power Plants and as we 
are stepping forward, the words light water reactor continue to 
be part of the game. And I have been told by numerous 
engineers, renowned engineers, people who know what they are 
doing and--who tell me that we now are capable of building 
nuclear power plants, for example, General Atomics has a plan 
for a high temperature gas-cooled reactor that can be done and 
that we have small modular reactors because--various sizes, but 
yet--and that reactor would be--and I am sure--and I have 
talked to other scientists and engineers about other approaches 
and they--I don't know--you suggested that--this--oh, this 
thing about thorium is that some of the claims are not true, 
but there are a number of approaches that I have been told 
would eliminate the leftover waste problem, which is a huge 
challenge for us to overcome before the public is going to 
accept further investment into nuclear energy.
    But every time I hear about--coming back--what will be 
built, again, it is light water reactors. So this money that 
you are talking about now being expended will go to light water 
reactors which have some of the same defects that we have 
experienced with Fushimora? I guess I am not pronouncing it 
right--Fukushima. And I don't understand what is going on here. 
Why are we spending money to build basically reactors based on 
the same concept that Fukushima was built on and that we have 
been building ever since World War II?
    Mr. Lyons. Well, thank you for the question, sir, and there 
certainly could be many answers to that.
    The reactors that we are--that we have supported through 
the NP 2010 program or that we are supporting through the SMR 
program----
    Mr. Rohrabacher. Um-hum.
    Mr. Lyons. --are certainly very, very different from 
Fukushima. They are dramatically safer than Fukushima and we 
could certainly talk about those differences.
    However, they are light water reactors. I agree with you on 
that point. We have in this country, we have in the world 
tremendous expertise on light water reactors and I don't 
question that there will be, I hope, a time in the future when 
we do move towards advanced reactors. They appear--by advanced 
I mean non-light water.
    Mr. Rohrabacher. Right.
    Mr. Lyons. There certainly are a number of attributes that 
we can list that they should be able to demonstrate but I also 
think there is going to be more research required to get to 
that point. And, as I said in my opening statement, I believe 
that the light water reactors for the foreseeable future will 
be a bridge between the industry of today and an industry of 
tomorrow that will be able to handle and utilize the advanced 
reactors.
    And I also--some of the other comments--there was the 
reference to the working group being formed within the Nuclear 
Energy Institute to explore advanced reactors, which I think is 
also very important to get industry--
    Mr. Rohrabacher. See, I don't see that as a bridge to 
anywhere else. What I see is this is a castle around the 
current establishment. I mean what we have got is not a bridge 
to tomorrow but a protection of the status quo. I mean your 
very analysis of what is going on here is we have so much 
expertise in the current system that it--protecting their jobs 
of people who now have that expertise and spent a lifetime 
developing it, there is something to be said to be humane to 
those people, but the fact is we need to have a step forward--
human progress needs a nudge here, and I understand people are 
going to lose their jobs who don't know the new type of way of 
producing electricity.
    It seems to me what we have, Madam Chairman, is a status 
quo of people who are credentialed, they have spent their 
lifetime learning about it, they are expert, they can be put on 
consulting contracts, and they don't want to change the status 
quo and that is why we don't ever come up with the money--we 
are coming up with a bridge but we never come up with the money 
to get across the bridge.
    Chairwoman Lummis. I thank the gentleman.
    Mr. Rohrabacher. Thank you very much.
    Chairwoman Lummis. By unanimous consent, the Chair now 
recognizes the gentleman from Georgia, Mr. Broun.
    Mr. Broun. Thank you, Madam Chairman. I appreciate the 
opportunity to ask a question or two, and I appreciate the 
opportunity to be here and thank you for serving on my 
Committee to and this same Committee.
    But, Dr. Lyons, I am a physician from Georgia, and as you 
know, Georgia Power Company is building the first licensed 
reactor that has been approved in I guess three or four 
decades, and it seems to me that the Nuclear Regulatory 
Commission has been a huge hindrance for Georgia Power to be 
able to build this and it is going to cost Georgians a 
tremendous amount of money.
    And it seems to me also that there should be a way for NRC 
and for DOE to have some basic schematic or preapproved plans 
that could be put out there for companies like Georgia Power 
Company or any of the Southern Company or any of the other 
power company in this country to be able to go ahead without 
having to expend so much money to get approval and have all the 
stoppages that have occurred over and over again.
    For the name of peace, please, I beg of you try to put 
together some way that the power companies can build these 
reactors. I am a huge advocate of nuclear energy and I want to 
see these advanced reactors, and as we go forward with these 
advanced reactors, the government can be a hindrance. That is 
what my friend from California was talking about.
    Is there any reason whatsoever that we cannot have some 
kind of a preapproved schematic or preapproved plans that NRC 
and DOE can approve and we can put these--not only the current 
type reactors in place but as well as the advanced reactors?
    Mr. Lyons. Well, thank you for your question, Mr. Broun. I 
can perhaps address some aspects of that, although the majority 
of your question really is appropriate for the NRC.
    However, as far as preapproved plans, the Vogtle plant is 
being built on a preapproved Part 52 design-certified AP1000.
    Mr. Broun. I understand that but over and over again NRC 
has caused stoppage after stoppage after stoppage, and this 
kind of thing is going to cost Georgians a tremendous amount of 
money. How can we get through this?
    Mr. Lyons. Well, the idea of Part 52 is that once one has 
the design certification that it will be built per the way it 
is spelled out in the design search. To the extent that there 
is a departure from that, then the--Georgia Power in this case 
has to go back to the NRC to ask whether whatever change is 
being made is acceptable. I know the NRC is working on ways to 
streamline this process. I don't know the details since it is 
over in the NRC now and I am quite removed from that. But I do 
believe that the overall Part 52 design certification approach 
is the best way for the country to move forward to have 
certified designs where it is agreed upon upfront exactly what 
is going to be built, build it, and then proceed to operate it.
    Mr. Broun. Well, I promised the Chairman that I was not 
going to take a lot of time and I appreciate your answer.
    And I beg of NRC, as well as DOE, let's make it so that we 
can build these nuclear plants, that we can develop the 
advanced reactors, and we can do so in a very cost-effective 
way without costing the taxpayers, as well as ratepayers, so 
much money.
    Thank you, Madam Chairman. I yield back.
    Chairwoman Lummis. I thank the witness for his valuable 
testimony.
    And the Members of the Committee may have additional 
questions and we would ask you to respond to those in writing.
    So thank you, Dr. Lyons, and you are excused.
    And we will now move to our next panel.
    Now, let me give you a little notice about our schedule. It 
looks like we are going to have a vote series coming up in 10 
to 15 minutes possibly. We would like to expedite the efforts 
to hear what this second panel has to say so we are going to 
move quickly into your testimony.
    This vote series is going to be long and rather than hold 
you here waiting for us to return, we would like to hear your 
testimony and then invite you back early next year so we can 
ask you questions about the matters to which you will be 
testifying.
    So without further ado, it is time to introduce our second 
panel. Our first witness is Dr. Ashley Finan, Senior Project 
Manager of The Energy Innovation Project at the Clean Air Task 
Force. Dr. Finan manages the Advanced Nuclear Energy Project.
    I would like now to ask Ms. Bonamici to introduce our 
second witness.
    Ms. Bonamici. Thank you very much, Chairwoman Lummis, for 
allowing me to participate in the hearing and I thank my 
colleagues on the Subcommittee who have invited Mr. McGough. 
Thank you for being here. Mr. Swalwell and Mr. Veasey were kind 
enough to invite me to introduce you.
    And to Mr. McGough, thank you for your willingness to share 
your considerable knowledge on this issue. Mr. McGough is a 36-
year veteran of the commercial nuclear industry. He has 
overseen the development of nuclear facilities around the 
globe. Now, he is helping an innovative Oregon company develop 
a safer approach to nuclear power.
    NuScale Power is a leader in the developing field of small 
modular reactor, or SMR, technology. It is based in Corvallis, 
Oregon. My colleagues in the Oregon delegation and I have 
supported NuScale's efforts to secure Department of Energy 
funding for their design development because we see their 
approach as offering a safer alternative to current reactor 
designs.
    I was pleased to see that the funding bill for Fiscal Year 
2015 includes programmatic funding at the DOE that supports 
NuScale's design development. Following the earthquake and 
tsunami in Japan in 2011, my constituents expressed serious 
concerns about safety issues and I am very proud to have an 
Oregon company working to develop a safe approach to this 
problem.
    And because I am also on the Education Committee I do want 
to point out that Oregon is home to the only research reactor 
operated primarily by undergraduate students. The research 
reactor at Reed College since 1968 has 40 licensed students 
operating it.
    So, Mr. McGough, thank you for coming here from Oregon and 
for appearing before us today. I look forward to your testimony 
and I yield back. Thank you, Madam Chairwoman.
    Chairwoman Lummis. I thank the gentlewoman.
    And our third witness is Dr. Leslie Dewan, cofounder and 
Chief Executive Officer at Transatomic Power. Dr. Dewan was 
recently named one of Time Magazine's 30 people under 30 
changing the world. Welcome, Dr. Dewan.
    Our final witness today is Dr. Daniel Lipman, Executive 
Director of Policy Development at the Nuclear Energy Institute.
    Now, as our witnesses should know, spoken testimony is 
limited to five minutes each. Hopefully, we will have time 
after the vote series to ask you some questions but that 
remains to be seen. So we are going to play it by ear.
    Thank you so much, panel. Your written testimony will be 
included in the record of this hearing.
    So I now recognize our first witness, Dr. Finan. Welcome.

                 TESTIMONY OF DR. ASHLEY FINAN,

       SENIOR PROJECT MANAGER, ENERGY INNOVATION PROJECT,

                      CLEAN AIR TASK FORCE

    Dr. Finan. Thank you.
    Chairman Lummis, Ranking Member Swalwell, and distinguished 
Members of this Subcommittee, thank you for holding this 
hearing and for giving me the opportunity to testify.
    My name is Ashley Finan, Project Manager for Energy 
Innovation at the Clean Air Task Force. Clean Air Task Force is 
a nonprofit environmental organization dedicated to catalyzing 
the development and deployment of low emission energy 
technologies through research and analysis, public advocacy, 
leadership, and partnership with the private sector.
    Climate change is an enormous challenge. To have the 
greatest chance of success, CATF's position is that we will 
need all of the low carbon energy technologies available, 
including nuclear power.
    While nuclear technology has made big incremental 
improvements in the last decade and is suitable for deployment, 
it still faces obstacles. Advanced reactors can address those 
by reducing cost and construction time, enhancing safety, and 
better managing waste.
    The United States has an exciting opportunity to continue 
to be a world leader in nuclear technology. We have some of the 
world's best innovators, a tremendous asset in the DOE and the 
national lab system, investors ready to invest in advance 
designs under the right conditions, and a regulator that is 
considered the global gold standard.
    As with any energy technology, the development and 
commercialization of advanced non-light water reactors requires 
a suite of supportive policies from early research through 
demonstration and adoption. I will focus on two elements that 
need more attention: first, a testing facility that would 
enable private companies to build prototypes in a DOE-
supervised environment; and second, a clear and predictable 
regulatory pathway for licensing advanced reactors.
    Historically, the Atomic Energy Commission developed and 
demonstrated new reactors with full public funding on 
government sites. Since that level of public support was scaled 
back, the United States has not seen successful 
commercialization of a major breakthrough in nuclear reactor 
technology but that is not for lack of ideas. We need a new 
model that better incorporates private investment while taking 
advantage of the important role that DOE plays. A testbed 
facility at a DOE site would provide technology-neutral support 
through public-private partnership arrangements. DOE has safety 
oversight authority, unique capabilities, experts, and 
experimental facilities that could dramatically reduce the 
barriers, costs, and delays involved in nuclear demonstrations.
    By controlling and defining many of the costs and unknowns, 
the testbed site would enable private investment in prototype 
reactors and pre-commercial projects. Not only could this 
unlock a great deal of private capital, it would enable U.S. 
innovators to move forward domestically rather than turning to 
foreign partners.
    In addition to demonstration activities, another crucial 
step in commercialization is licensing with the U.S. Nuclear 
Regulatory Commission. The NRC's experience base is with light 
water technology and it has established a clear pathway for 
licensing a light water reactor. The process for an advanced 
reactor is far less established and thus introduces a level of 
uncertainty that can be paralyzing to private investment. 
Advanced reactors don't need a shortcut or less stringency but 
they need a well-defined, predictable process. This is another 
area where the model could be adjusted to enable more private 
and venture investment.
    One such adjustment would be introducing stages of 
licensing. The current NRC certification process is all or 
nothing without interim levels of approval or acceptance. By 
comparison, the FDA has orderly stage dates with preclinical 
trials, phase 1, 2, and 3 trials; and finally, a new drug 
application. A drug can pass or fail at each stage and this 
provides a clear signal to investors that a technology is 
meeting or failing criteria set by the regulator.
    It certainly isn't trivial to stage NRC licensing. The NRC 
would need resources and will, but it would provide a more 
workable process for investors in new technologies. In 
developing such a stage pathway, it would be important to 
collaborate closely with the innovators and investors who would 
use this process. There are a variety of other actions that DOE 
and NRC could take to develop a risk-informed and technology-
neutral licensing framework that would be more applicable to 
advanced reactors. NRC and DOE have both taken steps in that 
direction but more resources and a clear mandate would ensure 
more timely action.
    Nuclear power can play a very large role in addressing 
climate change, as well as other global air emissions concerns. 
Private investors recognize that and are ready to move forward 
with advanced reactors if we can modernize the 
commercialization model.
    Thank you for this opportunity to testify. I would be 
pleased to respond to any questions you might have today or in 
the future.
    [The prepared statement of Dr. Finan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Lummis. Thank you, Dr. Finan.
    The Chair now recognizes Mr. McGough.

                 TESTIMONY OF MR. MIKE MCGOUGH,

            CHIEF COMMERCIAL OFFICER, NUSCALE POWER

    Mr. McGough. Thank you. Good morning.
    My name is Mike McGough and I am the Chief Commercial 
Officer at NuScale Power, the leading developer of American 
small modular reactor, or SMR, nuclear technology.
    I want to thank the Committee for the opportunity to 
testify before you today and I want to particularly thank 
Representative Bonamici for her welcome and introduction. I 
would also like to thank Representative Veasey and 
Representative Weber for their continued interest and support 
for our work.
    For 15 years our innovative company, based in Corvallis, 
Oregon, and majority-owned by the Fluor Corporation, has been 
advancing a unique SMR design that can play a significant role 
in our future needs for baseload carbon-free electricity 
generation. The NuScale design offers the safest nuclear 
technology available today.
    [Slide]
    Mr. McGough. As you see on Slide 1, we have solved one of 
the most vexing problems of the nuclear industry with a design 
approach that we call the Triple Crown of Nuclear Safety. In 
the event of a station blackout resulting in a complete loss of 
electricity comparable to what occurred at Fukushima, the 
NuScale Power module shuts itself down and cools for an 
indefinite period of time with no electricity, no operator 
action required, and no additional water other than an existing 
8 million gallon pool. This is possible because the NuScale 
design eliminates many of the electrically driven pumps, 
motors, and valves that large reactors rely on to protect the 
nuclear core. Instead, our reactor is safely cooled using three 
simple properties of physics: convection, conduction, and 
gravity to drive the flow of coolant through the reactor.
    [Slide]
    Mr. McGough. Slide 2 presents a visual description of this 
natural circulation cooling process and I am happy to provide a 
more detailed description of this process during the question-
and-answer session.
    [Slide]
    Mr. McGough. Our deployment characteristics are unique, and 
as you can see on Slide 3, the NuScale Power module is 
dramatically smaller than today's pressurized water reactors. 
It can be factory-manufactured and transported to a site via 
rail, truck, or barge.
    Our sites are scalable. As I mentioned earlier, each site 
can accommodate up to 12 NuScale Power modules. Therefore, the 
amount of electricity at a site is scalable to between 50 and 
600 megawatts based on site needs.
    Continued support from Congress and the DOE is critical to 
our progress. Tomorrow will mark the one-year anniversary of 
NuScale's selection as the sole awardee for funding in round 
two of the DOE's Small Modular Reactor Grant Program recently 
authorized by Congress. The SMR program provides NuScale with 
the vital cost-shared funding and support of the continued 
design of our reactor, as well as the cost of NRC's review of 
our license application. NuScale may receive up to $217 million 
of matching funds over five years.
    Of the two grant recipients under this program, we are the 
only developer proceeding at full speed towards near-term 
commercialization. Successful licensing of SMR technology 
depends on sustained Congressional support through continued 
appropriations for this program and we ask that you continue to 
prioritize this work.
    One of the highest risk components remaining in our project 
is the uncertainty of the time and the process for NRC 
licensing. In order to meet our customer's urgent needs, we 
must be in a position for commercial operations in 2024. 
NuScale has been engaged with the NRC on pre-application review 
efforts since April of 2008. We expect to submit our complete 
application in the second half of 2016 and the NRC plan 
reflects a 39-month review schedule. We are waiting for the NRC 
to issue the NuScale design-specific review standard, which 
will establish the basis for our technology review.
    Because of the unique technology, to ensure timely 
completion it is important that we have a team of NRC staff 
dedicated to reviewing the NuScale application. NuScale expects 
a robust market demand for our technology and a line of sight 
to our first project--projects. We are in active negotiations 
for our first project known as the Utah Associated Municipal 
Power System's carbon-free power project, which will be sited 
in Idaho. We expect to deliver our first project to the owner 
for a price of about $3 billion with subsequent plans in the 
range of $2.5 billion. Energy Northwest has joined this effort 
and the company holds first right of offer to operate the 
project.
    The NuScale SMR is a key part of our nation's energy 
future. We appreciate your past support and we ask that you 
continue to prioritize the development of SMR nuclear 
technology. Thank you.
    [The prepared statement of Mr. McGough follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Lummis. I thank the witness.
    And the Chair now recognizes our next witness, Dr. Dewan.

                 TESTIMONY OF DR. LESLIE DEWAN,

            CO-FOUNDER AND CHIEF EXECUTIVE OFFICER,

                       TRANSATOMIC POWER

    Dr. Dewan. Thank you, Chairman Lummis, Ranking Member 
Swalwell, and Members of the Subcommittee. I really appreciate 
the opportunity to be here and to talk with you all today about 
the future of nuclear energy and the best ways for our country 
to retain its superiority in nuclear technology.
    I am the cofounder and CEO of Transatomic Power, a nuclear 
reactor design startup based in Cambridge, Massachusetts. We 
are developing an advanced nuclear reactor that can consume 
nuclear waste reducing its radioactive lifetime while 
generating enormous amounts of electricity.
    In addition to Transatomic, there is a flourishing of other 
advanced nuclear reactor designs in this country that can 
safely produce very large amounts of carbon-free electricity 
with minimal waste. However, this great technology will only be 
useful if we can find a way to develop and commercialize it. 
Currently, the largest areas are the following: first of all, 
the lack of a clear regulatory pathway for advanced reactor 
development in the United States; and secondly, the lack of 
facilities for prototyping advanced reactor designs.
    The commercial regulatory structure in the United States is 
currently set up only for light water reactors. The system 
works well for these designs but it needs to be broadened to 
successfully encompass advanced reactors as well. Informal 
estimates suggest that it would take approximately 20 years at 
a minimum before such a regulatory pathway for advanced 
reactors would be available in the United States. And 
furthermore, there is a great deal of uncertainty in how much 
regulatory approval will cost the company commercializing the 
design. Estimates for licensing just the prototype facility 
through the NRC--this is just a prototype facility--range from 
$200-$500 million and there are no good estimates for the cost 
of a commercial license for an advanced nuclear reactor.
    This high cost and long timeline and furthermore the 
uncertainty in the estimates of the cost and timeline 
effectively block large-scale private investment in new nuclear 
reactors because no investor would want to put money into a 
project if they don't have a good sense of when they are going 
to get a return or how much it will cost at the beginning.
    The current system incentivizes reactor designers to 
develop their first projects outside of the United States, and 
in fact this has already happened. Some existing nuclear 
reactor design companies are planning on building their first 
power plants overseas in Canada or China or the Philippines 
because they don't think it will be possible to build an 
advanced reactor in the United States under the current 
regulatory system.
    A good path forward would be to move to a set of 
technology-agnostic guidelines based on performance criteria 
that would be equally applicable to all reactors. A similar set 
of functional guidelines, functional regulations were recently 
adopted in Canada and they are driving significant advanced 
reactor progress in that country.
    Now, regulatory issues are closely tied to the ability to 
build prototype nuclear reactors. The great deal of uncertainty 
in the cost and timeline for regulating and licensing prototype 
nuclear facilities is a significant barrier to private 
investment. A clear way to solve this problem would be to 
establish a testbed facility ideally at a national laboratory 
site for building demonstration-scale advanced reactors. This 
solution would require clarifying the existing rules that say 
it is possible to build and operate demo-scale advanced 
reactors at national laboratory sites under the auspices of DOE 
without requiring an explicit license from the NRC ahead of 
time. NRC staffers could potentially be stationed at the site 
so they could observe the construction and operation of the 
facility. And as they do this, the NRC staffers would be 
building up the necessary expertise in the technology to 
license commercial-scale plants in the future.
    Developing a better regulatory pathway for advanced nuclear 
reactors is vital for this country. The United States currently 
has the best nuclear technology in the world but I worry that 
this will not always be the case, especially if the most 
advanced reactor technology is forced to go overseas to be 
prototyped, licensed, and commercialized. A regulatory pathway 
for advanced reactors, coupled with the ability to more readily 
demonstrate reactor prototypes at national laboratories, will 
enable greater private investment in the suite of new nuclear 
reactor designs currently being developed and allow the United 
States to retain the extraordinary benefits of this new nuclear 
technology.
    Thank you all so much. I am very, very glad to have the 
opportunity to testify here today and I am really looking 
forward to answering your questions.
    [The prepared statement of Dr. Dewan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Lummis. And we are looking forward to having a 
little bit of time to do that. So I am glad that things on the 
Floor are slowing down.
    Our final witness is Mr. Lipman and he was nodding his head 
during some of the other presentations so I am looking forward 
to hearing his remarks.
    You are recognized, Mr. Lipman. Welcome.

                TESTIMONY OF MR. DANIEL LIPMAN,

            EXECUTIVE DIRECTOR, POLICY DEVELOPMENT,

                    NUCLEAR ENERGY INSTITUTE

    Mr. Lipman. Thank you, Madam Chair, and thank you, Mr. 
Swalwell and other Members of the Committee.
    I am Dan Lipman, Executive Director at the Nuclear Energy 
Institute. Before joining NEI, I spent more than 31 years with 
Westinghouse and a period of that time included leading the new 
build program, the new reactor business that brought the AP1000 
advanced design nuclear reactor to market.
    We are keen to address the interests of the Committee. I 
think they are critical, particularly because they touch on 
three significant areas. These issues are global, these issues 
are long-term, and above all, they impact U.S. leadership. As 
for the statistics on nuclear energy is contribution in the 
United States, both the Chair and Dr. Lyons underlined them. I 
don't need to repeat them, but I will say that nuclear power 
plants provide a number of other key attributes, including 
price stability, technological diversity, and grid stability.
    Nuclear fuel is not dependent on the weather or consistent 
fuel delivery by trucks or pipelines. During this year's polar 
vortex, while other electricity sources faced the challenge of 
crowded pipelines or even frozen fuel, the nation's nuclear 
power plants operated at a daily average capacity of 95 percent 
and no other source of electricity came close to achieving that 
level of reliability.
    In addition to being clean, safe, and reliable, nuclear 
power in the United States is a tremendous demonstration of 
U.S. leadership. U.S. reactor designs are the basis for many of 
the world's nuclear power programs, yet today we face very 
serious competition in world markets. Major growth in nuclear 
energy in the near term will be outside this country, so we 
need to develop a program that meets this competition head-on 
by improving our export control processes, establishing 123 
trade agreements with prospective partner countries, 
reauthorization of the Export-Import Bank, and importantly, as 
you have heard today, continuing to develop the safest and most 
advanced nuclear technologies here.
    And while we need to compete abroad, leadership means we 
need to be building and developing more nuclear at home. 
Maintaining nuclear energy' s share requires the equivalent of 
12 new nuclear power plants by 2025, and if today's nuclear 
power plants retire at 60 years of operation, we will need 20 
plants by 2030 and 45 by 2035, so subsequent license renewal is 
critical.
    It is a strategic imperative to deploy small modular 
reactors in the early to the mid-2020s followed by more 
advanced generation designs in the 2030s and beyond. Small 
modular reactors allow capacity additions at smaller increments 
and advanced reactors will likely have an even higher level of 
inherent safety and may be able to serve a vital role in 
management of spent fuel from today's light water reactors.
    Commercialization of advanced nuclear reactors will best be 
achieved through an appropriate program that identifies these 
technologies, facilitates their deployment, and as you have 
heard, the most significant challenges facing both SMRs and 
Generation IV reactors are financing and licensing. The time, 
the uncertainty, and the cost required to design, license, and 
build new reactors is daunting.
    You heard from Secretary Lyons that at NEI we are 
establishing, similar to our SMR working group, an advanced 
reactor working group chaired by the CEO of Southern Nuclear 
Operating Company to develop an industry vision of a long-term 
sustainable program that will support the development and 
commercialization of advanced reactors. We must establish a 
portfolio of technologies necessary to provide clean, reliable 
baseload electricity for the 2030s and beyond. federal and 
state governments and industry must address in the balance of 
this decade--so in the next five years--the financing and 
regulatory challenges facing these advanced nuclear 
technologies.
    Both SMRs and Gen IV reactors need to have their barriers 
deployment and eventually, as you have heard, for overseas 
markets. We need innovation, creative approaches to ensure the 
availability of capital and regulatory certainty and closure. 
Business as usual will not get the job done.
    Thank you.
    [The prepared statement of Mr. Lipman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairwoman Lummis. I thank the witnesses and we will now 
open our round of questions. The Chair recognizes the gentleman 
from Texas, Mr. Weber.
    Mr. Weber. Thank you, Madam Chair. Dr.--is it Dewan? Is 
that how you say that?
    Dr. Dewan. Yes, it is Dewan. Thank you.
    Mr. Weber. Okay. Transatomic has proposed a molten salt 
reactor, a non-light water design that will run on nuclear 
waste and reach high levels of efficiency at higher 
temperatures. I know I am telling Noah about the flood here but 
I am going somewhere. Mr. Lipman just referred to two problems 
being financing and licensing. NRC requires approximately 20 
years to develop a regulatory pathway for an advanced reactor 
design like Transatomic's and your company is in that process. 
Now, according to Businessweek, they had an article on--
Bloomberg Businessweek I think it is--on your company. How long 
have you been doing this? Let me just ask you that question.
    Dr. Dewan. I actually started the company with my cofounder 
back in 2011 actually.
    Mr. Weber. Okay.
    Dr. Dewan. For the first two years it was when we were in 
the middle of our Ph.D. program so we have been full-time just 
for the past year-and-a-half.
    Mr. Weber. Okay. And your cofounder's name?
    Dr. Dewan. Mark Massie.
    Mr. Weber. Mark Massie, okay.
    So for you guys has it been a nightmare? I mean there is no 
clear predictable legal process and permitting process. How 
does that work for you?
    Dr. Dewan. It has been tricky to say the least. And thank 
you so much for this question. It is an issue that I spend a 
great deal of time thinking about.
    We believe that ultimately we will be able to find a 
regulatory pathway for this type of advanced reactor technology 
in the United States on time scales shorter than the 20 years 
currently estimated. We feel it is a necessity if the United 
States wants to take advantage of this molten salt technology 
that was first developed in this country back in the 1960s, 
though it is a very tricky path.
    Currently, there is no way for us to build a prototype 
facility or move beyond the laboratory-scale work that we are 
currently doing. We want more than anything to do this in the 
United States but we have been forced to keep an open mind with 
respect to the other pathways we could take.
    Mr. Weber. Canada was mentioned earlier.
    Dr. Dewan. Yes.
    Mr. Weber. According to the Bloomberg Businessweek, you all 
started in February of 2010. You all decided to fix what is 
wrong with nuclear reactors.
    Dr. Dewan. Back in spring, summer 2010 was when we first 
started thinking about--very broadly about advanced reactor 
designs and how you can do such extraordinary things with all 
different types of advanced reactors, achieve very high 
burnouts, produce very little waste.
    Mr. Weber. When did you form your company?
    Dr. Dewan. We incorporated in spring of 2011 actually on 
the 25th anniversary of Chernobyl.
    Mr. Weber. So 3-1/2 years ago?
    Dr. Dewan. Yes.
    Mr. Weber. So in 3-1/2 years is there anything in that 
process you would do differently? Can you be very specific 
about dealing with our agencies?
    Dr. Dewan. So at this point we have been having informal 
conversations with people at the NRC. We haven't started a--we 
are not in a position yet to start an application process. We 
are not in a position yet to even start the pre-application 
process. That is also the point at which it starts being very, 
very expensive to engage the NRC once you move beyond informal 
conversations.
    Mr. Weber. And I don't mean to pry and you may not be at 
liberty to answer this but have you sought out investors?
    Dr. Dewan. Oh, yes. We have actually raised a round of 
funding so far from Founders Fund based in San Francisco. They 
are actually one of the main early investors in SpaceX so they 
are one of the few VC firms out there that is interested in 
longer timescale, higher risk, higher reward technology. 
Otherwise, for the reasons I had mentioned in my testimony, it 
can be very, very tricky to get private investments in nuclear.
    Mr. Weber. And have they been reluctant because of the 
permitting and that process?
    Dr. Dewan. A large number of the VC firms that we talked to 
before we started connecting with Founders Fund, a lot of the 
other firms were very concerned about the regulatory 
uncertainty.
    And it is not so much the high cost. I feel like if I could 
tell them--if I could tell potential investors it will cost 
$200 million just for the regulatory fees in addition to 
however much it would cost for engineering of the prototype 
plant, I feel like I could get private investment for that. But 
when I talk to people and I say, well, it could be 200 million, 
it could be 100 million, it could be 600 million, I honestly 
don't know, there are no data points, no one knows, that--
    Mr. Weber. No predictability.
    Dr. Dewan. That isn't something that I can sell to anyone.
    Mr. Weber. We hope to be able to help with that.
    And I yield back.
    Chairwoman Lummis. I thank the gentleman.
    And I am going to ask some questions. We have been called 
to votes but I think that if you will each try to limit your 
answers to about a minute, you should have an opportunity to 
respond.
    I would like to ask each of you the same question. I am 
going to start with Dr. Finan and go down the line. And I would 
like to ask you what can Congress do to assist your efforts to 
improve licensing processes, to expedite licensing processes, 
and to help the private sector move forward with potential 
technologies in this area under discussion today? Dr. Finan?
    Dr. Finan. Thank you.
    The NRC operates on a fee-recovery basis. They are required 
to recover 90 percent of their costs from fees that are paid by 
operating reactors, and those fees aren't funds that can be 
used to support regulatory research into an advanced reactor 
process. So one thing that Congress could do would be to 
allocate funds to NRC that would be outside of that fee-
recovery basis so that they could work on this R&D work and 
work on developing the groundwork that is needed for innovation 
and advanced reactor licensing.
    Chairwoman Lummis. Thank you.
    Mr. McGough, same question.
    Mr. McGough. Thank you.
    So the licensing process that Dr. Finan referred to, we 
have been involved with the NRC since April of 2008, so we have 
been paying those bills for a very long time and they are very 
expensive. To receive our design certification through that 
point when it will be completed in about 2020, we will have 
spent $530 million on that process. So it is very expensive.
    We need the NRC to issue to us something referred to as a 
design-specific review standard, which is basically a handshake 
about how our application will be reviewed. Without that, we 
are developing an application somewhat blindfolded, without a 
pre-agreement about when we submit it in this fashion, it will 
be expeditiously reviewed on the agreed-on 39-month schedule. 
Even--and that predictability is better than no predictability, 
as Dr. Dewan referred to. So it is really important to us that 
we have the NRC dedicated proper resources reviewing those 
applications in an expeditious fashion.
    Chairwoman Lummis. Thank you, Mr. McGough.
    Dr. Dewan, same question.
    Dr. Dewan. Thank you.
    And my answer ties in very closely to what Dr. Finan and 
Mr. McGough were saying, that what would be most useful would 
be to encourage the NRC to move to a more staged licensing 
process similar, as was said before, to a pharmaceutical 
biotech licensing process where there are multiple stages where 
designs can get early feedback on the viability of their design 
through a regulatory process in the United States.
    Chairwoman Lummis. And Mr. Lipman, finally, same question.
    Mr. Lipman. Yes. I concur especially with Dr. Finan's 
suggestion and I might add to it, and that is that Congress 
could establish a budget line item that is particularly 
allocated to the review of advanced reactor concepts. There is 
simply not the mandate for NRC to do that based under the model 
that Dr. Finan suggested. So that would be helpful very 
concretely.
    Also, the continued investment in many of the programs Dr. 
Lyons mentioned and some he didn't--or one he didn't--is the 
LWR Sustainability Program, which allows for advanced work in 
materials and other aging phenomena that keep our current fleet 
going.
    And lastly, perhaps investment under the laboratory system 
of advanced materials test reactors. You know, all of these 
technologies very often depend on behavioral properties of 
metallurgical phenomena and so reactors at the national 
laboratories can test these things, their data goes into 
licensing and can expedite the licensing process. So focus on 
the fleet and focus on the advanced concepts. Thank you.
    Chairwoman Lummis. I thank this panel and these witnesses 
for your valuable testimony and also the Members for their 
questions.
    The Members of the Committee may have additional questions 
for you and you may receive those questions in writing. We 
would ask you to respond in writing. The record will remain 
open for two weeks for additional comments and written 
questions from Members. Hopefully, you will not get them on the 
24th of December so you will be responding to questions on 
Christmas day.
    The witnesses, with our gratitude, are excused.
    I would like to ask the staff to prepare a written summary 
of the last responses that these witnesses gave to that 
question about what we can do and give it to Chairman Smith so 
going forward he will know what was recommended for future 
action or attention by this Committee going forward.
    Again, I want to thank our panel and I want to thank you 
for your wonderful work on our nation's behalf in this 
important area of research and development.
    With that, this hearing is adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
